<html>
<title> - THE LOOMING FAMINE IN ETHIOPIA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
                     THE LOOMING FAMINE IN ETHIOPIA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2000

                               __________

                           Serial No. 106-148

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
67-167 CC                   WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
         Thomas Callahan, Professional Staff Member and Counsel
                  Nicolle A. Sestric, Staff Associate






                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Catherine Bertini, Special Envoy of the United States Secretary-
  General on the Drought in the Horn of Africa and Executive 
  Director of the World Food Programme...........................     2
The Honorable Hugh Q. Parmer, Assistant Administrator, Bureau for 
  Humanitarian Response, U.S. Agency for International 
  Development....................................................    16
J. Stephen Morrison, Director, Africa Program, Center for 
  Strategic and International Studies, Washington, DC............    26
Gary Shaye, Vice President for International Programs, Save The 
  Children.......................................................    30

                                APPENDIX

Members' Prepared Statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York and Chairman, Committee on 
  International Relations........................................    34
The Honorable Tom Campbell, a Representative in Congress from the 
  State of California............................................    36

Witnesses' Prepared Statements:

Catherine Bertini................................................    37
Hugh Q. Parmer...................................................    44
J. Stephen Morrison..............................................    54
Gary Shaye.......................................................    59

Additional Information:

Letter from Assistant Administrator Parmer in response to a 
  question concerning French assistance to the Djibouti port.....    62
Letter from Assistant Administrator Parmer in response to a 
  question concerning Italy's contributions to relief efforts in 
  2000...........................................................    63


                     THE LOOMING FAMINE IN ETHIOPIA

                              ----------                              


                         THURSDAY, MAY 18, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
2172 Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order, if 
Members will take their seats, and please close the doors.
    This morning we are conducting a hearing on the conflict 
and famine in Ethiopia.
    Ms. Bertini, I would normally say it is very kind of you to 
be with us today, but I suppose that that would not be quite 
accurate, since you are in London and we are communicating with 
you by teleconference. Nonetheless, I am so pleased that this 
Committee now has the technology to be able to take advantage 
of your expertise from afar, and you usually are in far distant 
places throughout the world.
    We appreciate your taking the time out of your busy 
schedule to speak with us about the starvation in Ethiopia and 
the effects of renewed fighting, and our nation's ability to 
address it.
    The House will begin voting on a series of measures in a 
very few minutes. At that time, we may have to interrupt our 
hearing. I would like, therefore, to go immediately to your 
testimony, and I will postpone my opening statement until after 
we return from those votes; and I would ask my colleagues to do 
the same.
    At this point, I would like to ask our Ranking Minority 
Member, Mr. Gejdenson, the gentleman from Connecticut, for any 
opening remarks.
    Mr. Gejdenson. Thank you, Mr. Chairman. This is an 
important area. We have 16 million people in the Horn of Africa 
who risk starvation. There is a brutal and senseless war going 
on. It would be easy to throw our hands up and say there is 
nothing we can do, and they brought it on themselves, but 
obviously, that would just leave a lot of innocent people to 
suffer and die.
    There are lots of international organizations like Save the 
Children in my own State and many others who are trying to save 
people. The United States ought to use all of its resources to 
stop the war and end the starvation.
    I am looking forward to hearing from Ms. Bertini, whom I 
had the privilege of being with earlier in the week.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Catherine Bertini has directed the World Food Program since 
1992. She has done extremely well. In 1999, 88 million people 
around the world received World Food Program food aid. When the 
Secretary-General learned of the threat of famine in the Horn 
of Africa, he appointed Ms. Bertini as his special 
representative to that region. With her typical enthusiasm, 
Catherine Bertini immediately embarked on a mission to the 
Horn, followed by a thoughtful and comprehensive report. As a 
representative from our great State of New York, I take special 
pride in mentioning that Ms. Bertini is a graduate of the State 
University of New York at Albany.
    We welcome you, Catherine Bertini. We look forward to your 
testimony. Your written statement will be entered into the 
record in full. Please feel free to summarize.
    Ms. Bertini.

    STATEMENT OF CATHERINE BERTINI (VIA VIDEO-CONFERENCE), 
EXECUTIVE DIRECTOR, WORLD FOOD PROGRAMME, AND SPECIAL ENVOY OF 
THE U.N. SECRETARY-GENERAL ON THE DROUGHT IN THE HORN OF AFRICA

    Ms. Bertini. Thank you very much, Mr. Chairman, and I am 
pleased to be here with you too, even though ``here'' means 
London; and I appreciate the invitation. But I would be with 
you and Members of the Committee anywhere as we work together 
on critical issues that are a matter of life and death.
    I also want to thank the staff of the embassy here in 
London, very efficient staff, for working with your very 
efficient staff who have made this possible.
    You remember during the mid-1980's, when President Ronald 
Reagan said a hungry child knows no politics. Once again, his 
charge and that commitment that he made on behalf of the 
American people is something that we have to bring to fore, 
because it is true that while some of the countries in the 
region of the Horn of Africa are involved in a brutal war, we 
have to remember the hungry children. Once again, credit must 
be given to the United States of America who has taken an early 
lead in addressing these problems of the crisis in the Horn of 
Africa.
    I will summarize my statement and ask you to put the rest 
in the record.
    Chairman Gilman. Without objection, your full statement 
will be made a part of the record.
    Ms. Bertini. Thank you.
    As the Secretary-General's Special Envoy to the Horn of 
Africa, I have found that, first of all, the crisis is not yet 
a famine, but it easily could be; and it could be unless we put 
every effort possible into preventive measures in order to 
ensure that a famine does not occur. There have been 3 years of 
consecutive poor rainfall which has made it very hard for 
people and for animals. Their food is gone and their water is 
scarce. The health conditions are deteriorating, and the 
hardest hit people are those who make their living with their 
animals, pastoralists who wander in search of food and water 
for themselves and for their animals. We are always 
particularly concerned about women and children, because they 
are the most vulnerable. We estimate that in the whole region 
there are 16 million people who are at risk.
    The Secretary-General's timing in naming a special envoy 
was critical, I think, in order to put the United Nations in a 
position to be proactive, to be raising the issues and to be 
encouraging additional contributions and more coordinated aid 
efforts in the region.
    You will note from the map of the region entitled Greater 
Horn of Africa, Drought-Affected Areas, that there are huge 
areas affected by this lack of rain, and that they cross 
borders between Kenya, Ethiopia, and Somalia in particular. 
There are many people who cross borders, people who are, again, 
moving with their animals to find food and water, and they do 
not pay attention to where the borders are, they are just 
looking for relief. That means that we have to be very careful 
within the humanitarian community that we are providing 
complementary assistance. We don't want to place, for instance, 
a huge feeding center near the border in one country and then 
have that mean that hundreds and thousands of people are moving 
across the border to another area as well. So we have to have 
complementary programming.
    We also have to be very careful on the security side, 
because as people move, so do problems. So we have to be sure 
we have communications systems set up; and we are now in the 
process of doing that, so that we can have aid workers 
communicate with each other on a regular basis throughout the 
region.
    We have found that the biggest unmet needs are for clean 
water and for basic medicines. We have found that support for 
the livestock sector is almost nonexistent, and many of the 
people who are affected count on their livestock for their 
livelihood; and we have found that although food aid has been 
coming in, we need to ensure that we have the right kind of 
quantity and quality.
    For instance, people who had been counting on their animals 
but no longer have animals, were used to some basic protein in 
their diet. They need to still get some of that. We also need 
to be sure that children have the right kind of food when they 
are very vulnerable.
    I proposed to the Secretary-General, and he accepted that 
the United Nations do a new assessment and by the end of May 
announce an additional appeal. There are appeals already on the 
books, appeals already to donor countries asking for 
assistance. They were prepared with estimates based on 
assumptions made in November and December of last year, and 
those assessments assumed that there would be rain by now. But 
the rain has been sporadic; it is not enough. So this new 
appeal will build on the current requests and ask for 
additional assistance, especially in the areas of water needs 
and health needs.
    We are hoping that UNICEF will play a lead role, as well as 
WHO providing medical expertise and FAO in its efforts to help 
with livestock and seeds.
    The OCHA, the United Nation's humanitarian coordinators 
organization, is playing a very active role. They provided 
excellent support for my mission, and now, they have a staff 
member appointed by the Secretary-General to report to him 
through OCHA in order to manage the coordination of 
humanitarian affairs for the Horn of Africa. He is Manuel 
Aranda daSilva, and he is based in Addis Ababa, already at 
work.
    One more area that needs to be highlighted is the area of 
transportation. The ports that we will be using need additional 
upgrades. The World Food Program has been working on that now. 
Also, the roads in and out of those ports need to be improved, 
and we are asking donors for assistance in helping to do that. 
The transport within the individual country, especially 
Ethiopia, needs extra expertise, and we have been providing 
that to the government, but it also needs coordination among 
all the donors--the NGO's and the United Nations--so that we 
can maximize the use of a limited amount of trucks and reduced 
port capacity.
    Then, finally, Mr. Chairman, I want to say, how can the 
United States help and what else can the United States do? I 
did have the opportunity to talk with you a bit about this 
before and with Mr. Gejdenson and with others. Let me just 
quickly summarize.
    First of all, USAID has been very proactive, acting early 
and quickly in the Horn. They have given very generous 
contributions of food, and I would hope that when the new 
appeal comes out later, they would continue to give generous 
contributions, assuming that the needs have increased after the 
assessment is finished. Related to that, however, I would hope 
that the United States would take a special look at the needs, 
the non-food needs like medicines, water supply, cans to carry 
water, and seeds and tools, and livestock expertise and 
support. I would hope that the United States would make 
contributions also to the agencies to be able to work in these 
very crucial areas.
    We have found that even in the regions where the most 
severe hunger existed, the people who died had died not of 
malnutrition primarily, but of diarrhea, of measles, of upper 
respiratory diseases, things that could have been--people who 
could have been saved with the right kind of medicine.
    Another area I think where the United States can be helpful 
is in upgrading the roads, particularly the ones in and out of 
the ports in Djibouti and Berbera. Because even once the port 
improvements are complete, we still need decent roads; 
otherwise, that will slow down the movement of food and other 
important items in and out of Ethiopia in particular. Then also 
the United States and its other partners, donor partners and 
all of the NGO's and the United Nations must work very, very 
closely on coordination, perhaps more closely than we have in 
any other place, because, again, of a limited port capacity. It 
is very important for us to coordinate when the ships are 
coming into port, from whom the trucks are being leased, when 
the trucks are available; all of these things are critically 
important.
    Finally, the United States might consider sending some 
experts for a few months to the regional coordination unit to 
be able to provide assistance on issues like livestock 
development, public health, and possibly security, because 
security for United Nations staff and humanitarian staff in the 
region is critically important as well.
    Most importantly, of course, in addition to this critical 
humanitarian need, the United States could use its political 
and diplomatic skills in a major way in its efforts to bring 
peace to the people in the region.
    The American people have reached out to poor people and 
people who need food and medicine throughout the world in many 
generous ways before. The American people have saved millions 
of lives. With your leadership, Mr. Chairman, Mr. Gejdenson, 
Members of the Committee, the active work of the Administration 
and the brave work of NGO's and U.N. staff around the world, I 
know we can do so again in the Horn of Africa.
    Thank you.
    [The prepared statement of Ms. Bertini appears in the 
appendix.]
    Chairman Gilman. Thank you, Catherine Bertini, for your 
excellent report. I know you have a time constraint, and we 
will try to be brief.
    You mentioned a number of things that we should be doing--
generous contributions and the upgrading of the ports and 
coordination of relief activities and provision of livestock, 
et cetera.
    What do you feel is the most critical that we should do 
immediately while we are working on this? What is the top 
priority?
    Ms. Bertini. From a humanitarian perspective, two things I 
would say, Mr. Chairman. First, is money to upgrade the roads 
so that the goods can move through; and second, is additional 
support for medical and water-related non-food items.
    Chairman Gilman. In upgrading the roads, are they capable 
of fulfilling that responsibility if we help them financially?
    Ms. Bertini. The way it would be done, Mr. Chairman, is 
that the World Food Program would contract people to do the 
work and would monitor and follow the work. We would bring in 
some of our own experts to supervise this and hire local people 
to manage it. So we have had good success in doing this in 
areas around the world before, so I can assure you that we 
would do it quickly and well enough for the food trucks to move 
through.
    Chairman Gilman. Will the ports in Djibouti and Berbera be 
adequate to handle the transport requirements?
    Ms. Bertini. That is a good question. First, let me say 
that we anticipate that 170,000 tons of food and other items 
need to move through either of those ports, particularly into 
Ethiopia. That is assuming the current needs, but that is for 
all of the humanitarian aid. The needs might go up.
    Djibouti can probably provide about 140,000 or 145,000 
tons. Berbera can probably provide about 20,000 or 25,000 tons. 
So that means that it can be handled, but it is very, very 
tight, and that only assuming that everything goes extremely 
well.
    The Djiboutian port officials believe that the Djibouti 
port could handle actually as much as 200,000 tons, but that 
would require extremely smooth coordination. If this does not 
work, then we will have to go back to the officials in Ethiopia 
and Eritrea and discuss the use of the Assab port.
    Chairman Gilman. Ms. Bertini, are you aware of any of the 
food or humanitarian supplies being diverted to the war effort?
    Ms. Bertini. We, of course, investigate every time we hear 
anything, and just in the last couple of days, we have had a 
couple of allegations that we are looking into. For instance, 
we learned that the government sent about 1,132 metric tons of 
food to displaced people, and because we learned this after the 
fact, we were not able to monitor this food, and we must be 
able to review it.
    We also understand that some food has been going to another 
area where it is intended to be used to feed displaced people, 
but this is food that had been requested for drought victims. 
So it means that we have to upgrade our ability to monitor the 
food from the warehouse to ensure that it is going to the right 
people.
    Chairman Gilman. One last question. Six bridges in between 
the port of Berbera and a famine area are reported to be out. 
Can we put Bailey bridges in and leave them there? Would that 
not serve economic development interests in Somaliland, as well 
as meet our logistic requirements?
    Ms. Bertini. Absolutely. Part of the improvements of the 
port and the road and bridges and access ways out of Berbera 
would certainly be longer standing to help support the economic 
development of this region in that peaceful part of Somalia.
    Chairman Gilman. Thank you very much, Ms. Bertini.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you. Let me first say, the ability to 
predict the weather is much better today, so we knew that there 
were going to be rainfall shortages. It is easier to mobilize 
this Committee to hold a hearing today, so I am not just 
blaming others, because there is a crisis now, it is immediate. 
We have so many places in the world to pay attention to; and if 
you tried to get our attention 3 years ago or 2 years ago, it 
probably would have been more difficult.
    But are there things that we should have been doing 3 years 
ago, 2 years ago, 1 year ago that would have made this 
situation more manageable, and what would they be?
    Ms. Bertini. Two things I think, Mr. Gejdenson.
    First of all, generally the United Nations has a much 
better process for being able to predict drought areas. I 
should say, beyond the United Nations, coordinating with U.S. 
facilities, as well as other international facilities. So this 
particular drought was predicted to be less severe than it was. 
There were a lot of efforts made last year on the part of the 
governments in the region, as well as the agencies supported by 
donors such as the United States, to bring in a lot of food and 
to work on contingency planning. The problem is, even the 
worst-case scenario presumed that there would be a longer 
amount of rainfall by now, and that did not occur.
    Over the long term, in answer to your question, we need to 
be rethinking how we deal with droughts in this part of Africa, 
or in any areas where droughts come often. Because if they do, 
I think what we have to do is help provide support and 
assistance to the governments to be able to react in a 
different way.
    I heard an interesting review of this by Dr. Richard 
Leakey, who is now the head of the Civil Service in Kenya, when 
I visited him on this mission. He said, we in this part of 
Africa have to start thinking about droughts as African winters 
and we have to change our mind-sets. He said, you people in the 
north where the snow comes, you know you are not going to grow 
food then, you know you have problems with passable roads, so 
you make preparations for that. Somehow, we have to rethink how 
we position food, how we plan for food for the animals over the 
long term.
    One thing that might help the process, as Secretary-General 
Kofi Annan has not only asked me to go to work on this issue of 
the current drought, but he has also asked Mr. Diouf of FAO 
would he work on some longer-term solutions. As yet, we don't 
have those to discuss.
    Mr. Gejdenson. Let me just ask, I think it is clear that we 
have to do whatever we can to help the people who are 
suffering, no matter how insane the policies of the government 
in a country may be. But how do you find--how do you make sure 
that your involvement, our involvement, doesn't increase the 
ability of the government to sustain the war? In a sense, they 
now can ignore several hundred thousand people or more who need 
assistance because the international community is rushing in, 
and so they can put all of their resources and effort into 
fighting?
    Ms. Bertini. I think the drought, first of all, is bigger 
than the government's capacity to be able to handle it, even if 
there were not a war, and that would be true for both the 
governments that are involved in war. Of course, we are also 
providing assistance in Kenya and Somalia and Uganda, Tanzania 
and elsewhere, and the war is not an issue in most of those 
places. So I think the assistance is necessary, in any event.
    Does it provide a bit of relief to the government that we 
are sending this food, additional food because of the drought? 
Perhaps. But the people who are drought-affected I believe need 
massive amounts of food from us no matter what.
    Do we have an alternative? I don't think so. I think we 
have to be sending the food and making sure that it is going to 
the drought-affected people. That is our big challenge. But we 
have to send the food, because the alternative is that innocent 
people will suffer even more.
    Mr. Gejdenson. Thank you.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Royce, the Distinguished Chairman of our Subcommittee 
on Africa.
    Mr. Royce. Thank you, Mr. Chairman. I want to thank you for 
calling this hearing on famine in the Horn, and on America's 
effort to help. I do hope we have the opportunity to look at 
one of the root causes of this famine, which is the wasteful 
war between Ethiopia and Eritrea.
    Today, we are looking at a scenario in which both nations 
have both spent to date, $1 billion. Every day that goes by, a 
half-million is spent by Ethiopia alone on paying their troops. 
When we talk about the lack of vehicles for transport, the 
infrastructure problems in the famine context, I think it is 
important for us to realize that those vehicles have been 
commandeered. They are at the front. There is a reason why 
those vehicles are not there to transport humanitarian 
assistance.
    This is the largest war in the world at the moment, and 
millions are starving, and I don't think we should pull any 
punches. This is gruesome. It is a gross devaluing of human 
life by both sides. The international community must speak out 
against this sad chapter in Africa's history, including 
imposing an arms embargo; and I commend the administration for 
pushing that at the United Nations.
    Often, the war is described as senseless. The leaders of 
these two countries were friends, so it goes. They fought side-
by-side against the previous regime. So people ask, how could 
these two countries, which showed so much promise, take up arms 
against one another, and lead tens of thousands of their young 
men and women to their deaths and help generate the crisis with 
a famine?
    This is not senseless. The war has deep fundamentals. The 
countries are at odds over economic and political issues. The 
war has cultural roots, and as for the territorial dispute, in 
my estimation, it is a convenient ruse for both nations wishing 
to deflect attention from the deeper issues of this war.
    One of the deepest issues driving this carnage is that both 
governments see domestic advantage in making war; that is the 
sad reality. Until we get beyond arguing over old maps and 
treaties, tens of thousands of young men and women will 
continue to die, and the world will hear about the perverse 
celebrations from both capitals over how many enemy lives they 
have snuffed out. No, this war has an all-too-real logic.
    Finally, let me share a New York Times report of this 
Tuesday from the trenches:

    Ethiopian soldiers said they had found something in the 
trenches emphatically not dead: a 1-month-old baby. Many women 
are in the Eritrean army and the baby may have indicated just 
how this war has become a part of normal life in Ethiopia and 
Eritrea over the last 2 years. ``I got the feeling that he 
lived there,'' said an Ethiopian soldier as he watched the baby 
being carried from the trench.

    Ms. Bertini. Mr. Royce, I think, first of all, the 
humanitarian work is affected by our inability to use the ports 
in Eritrea, so we have to use the Djibouti and Berbera ports, 
and it would be easier if we could use the ports in Eritrea.
    Second, the people on the border are displaced; there are 
many people who lived on the border in either country who are 
now displaced because of the war, and while that is not 
necessarily a drought-affected area, it just does put many more 
people at risk because of what is happening in the war, and 
they are cut off from all their normal facilities--food, 
medicine, everything else. So it makes for a lot more people 
who need assistance, though not drought-related.
    On the drought-related side, in addition to the port, there 
are some problems in terms of the distribution. There is a 
limited trucking capacity, and there is interest on the part of 
the government to manage the trucking facilities. Some of this 
was done before the war, but it is much more controlled now, 
let's say. I cannot say whether that is a result of the war or 
not, but I can say that we are working with the government to 
try to allow experts from the United Nations, particularly the 
World Food Program, to be able to help manage the distribution 
in certain parts, for instance, of Ethiopia where we feel that 
we could do it relatively efficiently, compared to the current 
operation of distribution.
    So I think those are some of the areas where we have seen 
effects so far.
    Mr. Royce. What are the people that you are helping saying 
about the war? What is their observation?
    Ms. Bertini. When I visited with people in the countries, 
we didn't talk about the war; we talked about the people's 
lives and how they were struggling to keep their lives and 
their families together. So I think the war was very far away 
from some of them.
    Of course, in some communities, the husbands and fathers 
weren't there; they were perhaps at the war, but when we asked 
where they were, that is not what we were told.
    Chairman Gilman. The gentleman's time has expired.
    Ms. McKinney.
    Ms. McKinney. Thank you, Mr. Chairman.
    I have a statement that I would like to submit for the 
record.
    Chairman Gilman. Without objection, your full statement 
will be made a part of the record.
    Ms. McKinney. Thank you.
    Ms. Bertini, first of all, I want to express my agreement 
with the words that have been said before me.
    But, Ms. Bertini, in your testimony, your written 
testimony, you make the observation that the poorest people 
really don't know anything about the politics that are driving 
this; they are merely the victims.
    I am looking at a map of the affected places, and I believe 
Gode is there. I hope you have the same map. I am looking at 
Djibouti and Berbera, and it appears to me that by the use of 
those two ports, you have access to more of the people who are 
hardest hit.
    Could you talk to me about the use of those ports and the 
advantages? Because you have mentioned the use of the port of 
Assab, but it is farther away from the areas that are hardest 
hit. Talk to me.
    Ms. Bertini. The Djibouti and Berbera ports are closer to 
the people in the southeastern part of Ethiopia, and they would 
be used--particularly the Djibouti port--would in any event, 
but the port in Assab is larger and the roads coming in from 
the port of Assab are better than they are from Djibouti, which 
is why we need to have money to upgrade the road, because with 
the heavy trucks running on the road, upgrading would certainly 
help dramatically.
    The same with Berbera. The roads are very bad coming in, 
but as the Chairman pointed out, if we did upgrade them, 
including the bridges as well as the roads, we would also have 
long term economic development of that region, that part of the 
world.
    I think it is important to point out, though, if you look 
on that map, that the most populated region the drought is 
affecting is actually north of Addis Ababa; and that is where 
the Assab port could have been useful.
    But I don't want to demean the Djibouti and Berbera ports. 
They are good ports and we need to use them; we just need to 
make some upgrades to make them work better.
    Let me say also that it is not like we could go in tomorrow 
and use the Assab port anyway. There would need to be a lot of 
changes made. Many of the workers who used to work in the Assab 
port were Ethiopian, for instance, so there would need to be 
new workers recruited and trained. We would have to bring in 
expatriate drivers and they would have to have some place to 
stay, both in the port and over the border. There are a lot of 
issues that have not been resolved anyway.
    Ms. McKinney. What do you know about the use of land mines 
along that road leading to the Assab port?
    Ms. Bertini. I asked the Eritreans that question, actually, 
and they said that the road wasn't mined, but it is an issue 
that we would have to look very carefully at, not only the 
roads, but the sides of the roads. Because if a truck needs 
repair, it goes off to the side of the road; or is trying to 
avoid a goat in the middle of the road, it goes off. One would 
have to have pretty sure knowledge that it wasn't mined.
    So I don't know; I haven't asked, and it is something that 
needs to be checked. Also, in the harbor.
    Ms. McKinney. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Ms. McKinney.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I will be relatively 
brief, and if my questions have already been asked and 
answered, I apologize, but I had another Committee that I had 
to be at.
    So my main question is this: I just met with the Ambassador 
from Ethiopia in my office the other day and we have met with 
the Eritrean ambassador numerous times; and this war, all wars, 
many wars are pointless, and this one seems to be particularly 
pointless and a waste of human life and resources of countries 
which ought to be putting these goods to other uses.
    But could you elaborate somewhat on the connection between 
the war and how this is going to affect the ability of the 
countries to some extent deal with the famine themselves and 
what, if anything, the United States should be doing to resolve 
that?
    Ms. Bertini. The most important thing the United States 
should be doing is, at the highest levels possible, trying to 
find peace for the region and ensure an end to the war. From a 
humanitarian perspective, let me say that the drought is larger 
than the war in terms of the country's ability to manage the 
assistance needed because of the drought. So we must be there, 
whether there is a war or not.
    However, there are some issues in terms of the transport 
capacity and the management of the trucks, the port 
availabilities, that are affected by the war.
    Mr. Chabot. Thank you.
    Chairman Gilman. Thank you, Mr. Chabot.
    Mr. Ackerman.
    Mr. Ackerman. Thank you very much. I appreciate all of your 
great efforts in this work that you are doing.
    Ms. Bertini. Thank you.
    Mr. Ackerman. You mentioned before that part of the problem 
was the inability to access the ports of Massawa and Assab, or 
you said the ports in Eritrea, leaving the impression that it 
was Eritrea. Is that the impression that you wish to leave, 
that it was the Eritreans that were not enabling us to use 
those ports? Why can't we use the ports is the question.
    Ms. Bertini. First of all, let me say your voice was cutoff 
for just a second, but I got the end of your question, which is 
why can't we use the port, specifically, why? Is that correct?
    Mr. Ackerman. Yes. Who is not enabling us to use the ports 
that are in Eritrea?
    Ms. Bertini. The message from the Eritrean Government is, 
you can use the ports, you can use them tomorrow, or at least 
this was the message to me. Whether or not this has changed 
because of the outbreak of more fighting in the last week, I do 
not know. But the message of the Eritreans was, you can use the 
port tomorrow.
    The message from the Ethiopians was, we don't want you to 
use the port, and besides, we don't think it is necessary to 
use the port, because we think that for all of the food and 
everything else that needs to come in, there is enough capacity 
at the Djibouti port, with the Berbera port as back-up. I will 
relate a couple of things on my discussions with both of them. 
In my discussions with the Prime Minister of Ethiopia, we 
discussed this, and he agreed that if his analysis is wrong, 
his analysis being that the Djibouti port plus Berbera were 
enough, that I would come back to him and we would discuss 
other options. He made it known that the Assab port would be 
his last option to be discussed, but we would find another way 
to be able to get food and other goods into the country.
    On the Eritrean side, I talked with them about by what 
means we could use the ports today, and there were several 
issues involved there. One is, there are some technical issues 
where there would need to be some work done which the World 
Food Program is doing--in the event that that port would be 
available. Massawa is not a port we would be using, we would be 
using the Assab port. On that side, we would need to, first of 
all, be assured that there are no mines on the roads or 
alongside the roads.
    Second, we would need to bring in an expatriate group of 
truckers in order to drive the trucks, and we would have to 
build housing in the port and across the border in Ethiopia for 
the truckers.
    Then also, we have----
    Mr. Ackerman. Is there an impediment to that? Would there 
be somebody to prevent you from doing that?
    Ms. Bertini. No. Assuming both countries said it was all 
right, no.
    Mr. Ackerman. You don't anticipate there would be objection 
to that?
    Ms. Bertini. Not if they agreed we could use the port. That 
would be part of the usage of the port. It would be required. 
We couldn't do it otherwise.
    Then, can I continue? Would you like to hear the rest?
    Mr. Ackerman. Yes.
    Ms. Bertini. Then we have the issue of staff in the port 
because my understanding is that 75 percent of the stevedores, 
people who worked in the port before were Ethiopian, so the 
port would have to find more people.
    So there are technical things that we are working on in 
order to try to be ready should we be allowed to use Assab 
port.
    But the other issue, Mr. Ackerman, is that some donors have 
some reticence about sending food for Ethiopia through Eritrea, 
because 2 years ago, there were 70,000 tons of food which the 
Eritreans appropriated and used themselves that was destined 
for Ethiopia. I raised this question with the Eritrean 
authorities also, and their answer today is, they can assure us 
that they won't do that again.
    Mr. Ackerman. Are you confident that there are sufficient 
trucks for the relief effort in country?
    Ms. Bertini. No, there are not sufficient trucks for the 
relief effort.
    Mr. Ackerman. Have you put out a call for additional 
trucks?
    Ms. Bertini. We have asked for additional resources, and 
the World Food Program is bringing in 108 trucks that will be 
there the 1st of June. They are from Sudan; we are leasing them 
from the Sudan. Other private-sector people are bringing in 
additional trucks and the World Food Program is bringing in 400 
additional trucks.
    Mr. Ackerman. I just wanted to remind you that part of the 
huge problem the last time around, in 1983-1984, was that there 
were so many different kinds of trucks that the major problem 
became getting parts, because you were able to get parts for 
the wrong trucks, and I just want to remind you to be alerted, 
to try to coordinate trucks and parts from the same people.
    An additional question that I have----
    Chairman Gilman. The gentleman's time has expired.
    Mr. Ackerman. May I just have one more quick question?
    Chairman Gilman. Without objection.
    Mr. Ackerman. The effectiveness of the Ethiopian 
Government's Disaster Prevention and Preparedness Commission in 
their response, how would you evaluate their ability to do the 
job?
    Ms. Bertini. I think that they are professional. I think 
that they have been understanding of this problem and raising 
flags about it and I think that they have some good people who 
are well-organized. It is, however, a bureaucracy, and like all 
bureaucracies, it sometimes moves slower than some of us would 
like. But the United Nations has a good relationship with them, 
and we hope that we can work out any difficulties.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    I too just want to join in thanking you for all of the work 
that you have been doing in trying to prevent further disaster 
over in Ethiopia.
    Let me ask this question, though. It seems as though it was 
just yesterday, although I know it was 16 years ago, when we 
were faced with this kind of situation. I am wondering, with 
all of the modern technology of today, and with all of the 
opportunities, with reference to irrigation, et cetera, what 
are we doing or what has been done or what can we do so that we 
can make sure that we don't have to react after the fact again; 
but we can prevent this from happening beforehand by making 
sure that we are using our modern technology so that people 
won't be affected by droughts, as they are now?
    Ms. Bertini. I think in this part of the world, we are 
always going to find that there are people who are trying to 
deal with the negative effects of the drought. I think that 
this year is different than the mid-1980's, because we--the 
governments, the United Nations, the United States--everybody 
is raising this flag relatively early to say, we really need to 
get this assistance now.
    But I think that your question goes much deeper than that, 
and that is, what could we be doing to help the people over the 
long term?
    There are some kinds of public works, in fact, a lot of 
public works that have been done, especially in Ethiopia and 
Eritrea, since the mid-1980's, but because the land mass is so 
large and there are so many people, it will take many more 
decades before a lot of that is useful for the whole population 
is completed.
    But to give you an example, there have been a lot of 
projects where the people themselves have worked on irrigation 
programs. They have worked on terracing for erosion control, 
because sometimes when it rains it just wipes out so much top 
soil. Much of the area where the livestock roam is very dry, it 
is very arid, and there are big cracks that just form naturally 
in the ground. So there has been a lot of work to bring rocks 
in. This is manual labor, it is very tough. By the way, the 
women carry the rocks mostly, the men just kind of put them in 
the ground.
    But anyway, there has been a lot of work filling in a lot 
of these crevices, because otherwise, it cuts off the space 
that the animals would have to move around.
    But again, it is such a big place that even a significant 
amount of development work goes a relatively short way in terms 
of trying to deal with a big problem like drought.
    But when I think about the future, there are some kinds of 
things that could be done, and I will point to two, because 
these are two of the biggest areas that we saw where there were 
really gaps, and one of them is in livestock management. Since 
so many people, especially in this region, count on livestock 
for their livelihood, I think that much more could be done to 
bring in some expertise, to train people, local people in the 
regions, who could carry on then this information about how to 
store food for your livestock, how to find water when there is 
very little water available, how to make a decision when to 
sell before your cows die, a lot of different kinds of things 
that our livestock expert on the mission was telling us about. 
So I would hope we could build a network to help with that.
    The other network that is desperately critical is the 
health and water network. This is something that just doesn't 
exist very much. I don't mean the wells as much as clean water 
sources. We went to places throughout the region where if one 
was sick, one would have to go many miles to find a clinic to 
be able to help. So you don't do that unless you are very sick, 
because there is no public transportation. You go on the back 
of a donkey or somebody carries you. It just means that without 
that kind of an extension of medical care--for basic medicines, 
basic medicines for diarrhea and vaccinations, colds--many more 
people are at risk.
    So I would answer you that those are two things that I 
think could be done with a lot of effort but not too many 
resources.
    Chairman Gilman. The gentleman's time has expired.
    Let me just mention, we have a series of votes we are being 
interrupted with. It will be about 45 minutes of votes, so we 
are going to have to reduce our time for each Member.
    Mr. Payne, please be brief.
    Mr. Payne. Thank you, Mr. Chairman. I will be brief.
    Let me certainly thank you, Ms. Bertini, for the fine work 
that the World Food Program is doing. This is a problem. It 
seems to me, we should really be further ahead. I just listened 
to what you said, and certainly, I am sure that you would 
appreciate more funding for the famine early warning system. We 
have given $7 million this year for that. But I think that is 
something that is cyclical.
    There was a big famine in 1962-1963. I was in the Wollo 
Province and Dese City in the 1972-1973 famine and spent time 
there. At that time, people were nomadic, though, and they were 
moving, and no one really knew the famine was happening. It 
was, as a matter of fact, referred to as the ``unknown 
famine,'' because the administration of the country did not let 
out the fact that this famine was occurring; and it was very, 
very devastating, and I remember working up in that area back 
then. Then in the 1982-1983 famine, the same thing happened.
    Thus we know that they are cyclical, we know that they come 
about every 10 years.
    It would appear to me that--it would seem like some of the 
things that you have mentioned, but it seems to me that there 
should be a real world effort in trying to come up with a 
plan--because in the year 2008, 2009, or 2010, there is going 
to be another serious drought. We know that right now, as we 
are talking. So that is just an appeal, and perhaps we can work 
on that here through our State Department to push that with the 
OAU.
    Let me just ask a quick question. On both Eritrea and 
Ethiopia, sanctions have been suggested, and I wonder, would 
sanctions impact the food program?
    Ms. Bertini. As I understand the sanctions, they are for 
arms, are they not?
    Mr. Payne. Arms, and other--it will go beyond arms. I just 
wonder, has that been brought to your attention and what impact 
might that have on your program?
    Ms. Bertini. I wouldn't think it would have an impact, I 
would say, unless there is a sanction on food and medicine and 
other things that are in short supply. That would, in fact, 
have an impact on the program.
    Mr. Payne, I want to mention that the Secretary-General on 
the 30th of March when he announced my appointment as special 
envoy, he also said he was creating a task force to be able to 
deal with some of the longer-term issues of why droughts keep 
coming and what we can do about them, particularly in this 
region, so, I would refer you also to him and to Mr. Jacques 
Diouf, who has been appointed to look into this.
    Mr. Payne. Mr. Campbell and I have introduced a resolution 
316 that deals with the famine and trying to get additional 
support from our government.
    Thank you very much.
    Chairman Gilman. Thank you, Mr. Payne.
    Ms. Bertini, we want to thank you for your time. We want to 
thank the U.S. Embassy in London for its accommodations, and we 
hope we can do more of this with you as time goes on. 
Hopefully, there will be no more crises of this nature, but I 
am sure we will be confronted with some.
    I am going to recess our hearing until the votes are over. 
It will probably be about a 45-minute period. We have one vote, 
plus 5-minute votes. Thank you very much. The Committee stands 
in recess.
    Ms. Bertini. Thank you, Mr. Chairman.
    [Whereupon a short recess was taken.]
    [Recess.]
    Mr. Tancredo [presiding]. The Committee will come to order.
    I have a statement that I would like to read into the 
record before we proceed with testimony. This is the statement 
of Congressman Tom Campbell, submitted for the record at the 
hearing of the House International Relations Committee on the 
looming famine in Ethiopia.

    I call today on Ethiopia to stop the massive attack recently 
launched on neighboring Eritrea and to return at once to the peace 
table under the auspices of the Organization for American Unity.
    As a Member of this Committee, and its Subcommittee on Africa, I 
traveled to Eritrea and Ethiopia in 1998 shortly before the first 
outbreak of hostilities between the two countries. Now, after 2 years 
of sporadic fighting followed by months of stalemate, with troops in 
trenches opposing each other, Ethiopia launched an infantry assault on 
Friday, May 12, 2000, with more than a quarter of a million infantry 
backed by armored tanks. The attack went well into Eritrean territory, 
and well beyond the remote, lightly populated area whose sovereignty 
has been contested ever since the war began.
    There is no victory in the shameless massacre of 25,000 soldiers in 
a 3-day period, beginning last Friday at midnight. Over a year ago, I 
offered a resolution, along with my distinguished colleague, 
Congressman Donald Payne, that called on both countries to put down 
their weapons. That resolution, H. Con. Res. 46, passed the House of 
Representatives on October 26, 1999, and is pending in the Senate.
    Now, the world is watching while precious lives and resources are 
being spent in battle, when both are needed, instead, to ensure there 
is a harvest this year. People in both countries are facing starvation 
conditions, yet Ethiopia has chosen to extend this war. I am heart-
broken, as I had such hopes for Ethiopia's development, such pride in 
their accomplishments, and maintain such love for her people.
    It has not been easy to focus America's attention upon the needs of 
Africa. This war between two of Africa's poorest countries gives us a 
perfect excuse for those who would turn away and continue to do so.

    I will enter the statement into the record.
    [The prepared statement of Mr. Campbell appears in the 
appendix.]
    I will now introduce Mr. Hugh Parmer. We welcome Mr. 
Parmer, Assistant Administrator of the Bureau for Humanitarian 
Response of the U.S. Agency for International Development. Mr. 
Parmer's bureau coordinates disaster assistance and emergency 
response. He recently returned from a trip to the Horn.
    We are very interested in hearing your findings, Mr. 
Parmer, particularly with regard to the logistical hurdles of 
getting adequate supplies of food into the remote parts of 
southeast Ethiopia.

     STATEMENT OF THE HONORABLE HUGH Q. PARMER, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR HUMANITARIAN RESPONSE, U.S. AGENCY 
                 FOR INTERNATIONAL DEVELOPMENT

    Mr. Parmer. Thank you very much, Mr. Chairman, for the 
opportunity to come and appear before the Committee today. I 
want to thank this Committee and, in fact, the entire Congress 
for the broad bipartisan support which humanitarian operations 
around the world have received. Since the Bureau for 
Humanitarian Response, which I head, contains both the Office 
of Foreign Disaster Assistance and the Food for Peace office, 
we are the major responder--the 911 responder, if you like--for 
the U.S. Government.
    I spent 14 days, beginning on March the 11th in the Horn of 
Africa, and I would like to, if I may, share with you some of 
my experiences there. I will of course submit written testimony 
which will be more formal in nature, and I will be glad to 
answer any questions that Members of the Committee might have.
    If I could go to that second map, you can see, of course, 
the Horn of Africa identified on the map in front of us. If I 
could make the second microphone work, we will see if I do 
better with it than I did the first.
    My trip took me first to Addis Ababa in Ethiopia, and from 
Addis Ababa into the southern part of the country to a town 
called Gode. Gode is in the Somalia region. Its inhabitants and 
people in the surrounding area are pastoralists by nature; they 
travel with their herds. It is the area which was identified to 
us as the most heavily impacted by the drought.
    Certainly, when we arrived there, we had reason to believe 
that that was an accurate description. The first impression 
that you got in Gode, as you stepped off the aircraft into a 
car and headed toward town, was the large number of livestock 
that were dead and rotting in the fields. Over on the monitor 
we just gave you a bit of a picture of some dead cattle that we 
came across as we drove into town.
    We were told that virtually all of the cattle in the region 
had died. Sheep and goat casualties were in the 70 and 80 
percent range; even the camels, who are the most resilient 
beasts that these pastoralists have in their herds, were 
beginning to die, and that problem was compounded by an Anthrax 
epidemic that had broken out among the cattle.
    In Gode itself, we saw a stark, border-like kind of town, 
dusty and dry; there was no green in the entire region. What we 
saw in Gode were two things. First, a therapeutic feeding 
center where small children who are qualified by a height-
weight ratio were brought into the center and provided with 
necessary nutrients to treat their malnutrition. That center 
had 100 children enrolled in it at the time that I arrived 
there, 10 of whom, however, of the original enrollees had died 
in the week before my arrival.
    You will see a slightly different number in my testimony, 
because other Members of our parties got different numbers--but 
the local emergency committee people told me that 91 children 
under 5 years of age had died in the town of Gode in the 2 
weeks before my arrival there.
    There was also a supplemental feeding center. At that 
supplemental feeding center, there were approximately 850 
children that were being served. When I was there, there were 
another 500 mothers and children in a crowd outside the center 
waiting for their children to be measured and weighed to see if 
they could qualify.
    To give you a little bit of the human sense of it, I talked 
to a woman who had a very malnourished child in her arms. I 
asked her about her child through an interpreter, to which she 
replied, ``Well, this was one of my three children. I had three 
children when I arrived here 2 months ago; two of them have 
died.'' My question then was, ``Aren't you receiving assistance 
and help from the government?'' She said ``Yes, they are giving 
us wheat. My babies can't eat wheat.
    The supplemental feeding center was understaffed; it had 
insufficient food commodities; they were feeding at half the 
recommended level for the children.
    Upon my departure from Gode that day, I ordered a United 
States-funded civilian airlift of the proper types of food, F-
75 formula, Corn-Soy-blend (CSB) mix and high-protein biscuits 
to be landed in Gode. They arrived within a week.
    We visited a small town near Gode, just to get a sense of 
what was happening in the more rural areas. There were similar 
circumstances. I know our time is limited, and so I won't try 
to give you every anecdote that I ran across, other than to say 
that, in this town, we actually saw dead camels to illustrate 
again the tremendous losses in the only asset that these people 
have.
    From Gode, we went to the north to the area around 
Lalibela. This is the area which was the epicenter of the 1984 
famine in which over 1 million people starved to death. From 
there we took about a 2-hour drive out to a place called 
Wadhwan. What we saw along that drive were conditions that were 
considerably better than what we had seen in the south, but 
certainly marginal.
    One of the things we came across was a group of people who 
were selling their livestock at a spontaneous market. When you 
talk to farmers about why they are selling their oxen when 
their ox is the only animal they have to plow the fields, they 
tell you it is so that they can get a little bit of money and 
hopefully make it through the period until the major rains. You 
say, ``Well, then, what are you going to do with no oxen?'' 
They report that they are going to lease their land to someone 
who has animals.
    Now, I am from Texas. My family is from the south. My 
grandfather was a sharecropper. What I learned was that 
sharecroppers, people who farm the land for someone else, were 
the poor people in the society and the wealthier people were 
those who owned the land. It is the reverse situation in this 
part of Ethiopia. The person who has the animal is wealthy; the 
person who has the land--it is a reverse kind of a lease 
environment.
    The situation up there was not as bad as in the south, but 
what we found was that, in the area that we were, virtually 
everyone was receiving food assistance, and everyone was 
dependent on food assistance.
    There are two rains in this part of the world. The 
``meher'' or the long rains, and the so-called ``belg'' rain, 
or the short rain, which was supposed to have occurred 
immediately prior to our arrival in the area, had not occurred. 
Therefore, the belg crop upon which these people in the north 
are largely dependent had not occurred; there was no crop.
    I went to, as you can see over on the monitor to my left, a 
site where the government was distributing United States-
contributed grain to a crowd of about 2,000 people. With an 
interpreter, I talked to that group of people, and as I talked 
with them, I discovered that this distribution, this once-a-
month distribution, was all they had to eat unless they 
slaughtered their livestock, which some of them were doing. But 
as you can see, this is a healthier group of people than what 
we saw in Gode. Nonetheless, not only was this the only 
distribution they were receiving, but they were at half-rations 
of distributed food, that is, U.S. food distributed through the 
Ethiopia Emergency Committee. These were people who were not in 
an immediate, prefamine condition, but these are people whose 
existence was very marginal, and if they had any interruption 
in the supply of food aid, they would quickly find themselves 
in prefamine conditions.
    I went to Kenya, I did not get into the northern region 
where the drought has had a similar effect as in southern 
Ethiopia, but I did have an opportunity to meet with a number 
of people from southern Sudan. The one piece of good news in 
the trip is that Sudan this year has had one of the best 
harvests in recent times. In fact, the need for food 
assistance, although still there in Sudan, is less than it has 
been in subsequent years, and that is a good thing in that 
those commodities are badly needed in other places.
    I went from Kenya to Baidoa in Somalia. Just a brief aside, 
Mr. Chairman. It was a rather remarkable visit. I was greeted 
in terms of my representation of the United States, like a 
hero. People said to me, ``We will never forget here in Baidoa 
what the United States of America did when you led the 
intervention to prevent the famine back in the early 1990's.''
    The governor of the area said to me, ``You should consider 
this your second home. We know you have been told it is unsafe 
here.'' I was the first American official in southern Somalia 
since the withdrawal of the peacekeepers. He said, ``I know you 
have been told it is unsafe; this part of Somalia is the safest 
place in the world for you.'' He also said, ``First George Bush 
came and now you have come.'' I said, ``There is a bit of a 
difference in our pay scale.''
    We found the people in Baidoa, that was the city of death 
in the Somali famine, to be in remarkably good shape now. There 
was water in the stream in the town, people were watering their 
animals, the animals looked healthy, the children looked 
healthy. I was very favorably impressed with the condition of 
the people there.
    In a nearby rural village, the people still were in pretty 
good shape, but obviously their condition was more marginal. 
Again, pastoralists in this area are dependent upon their 
flocks and their herds. The animals did look good, but they 
were good because of a UNICEF-funded water project that 
produced water.
    We then went to Djibouti. Djibouti, of course, is the area 
and the port through which our logistics are having to operate. 
We visited the port, we talked to logistics people. I think I 
got a reasonable assessment of the capacity of that port at the 
time I was there, and I will be glad to answer questions about 
that.
    I think the best way to describe it is that theoretically, 
the port of Djibouti will handle the commodities that we need 
to move into the region during the next few months. But I 
emphasize ``theoretically,'' because our experience is that in 
a humanitarian relief operation, nothing works at 90 percent 
capacity. That would be required for the port of Djibouti to 
successfully handle all of the materials coming in.
    In Somalia, I did not get to Berbera, but I have sent an 
assessment team there. That port can handle a little bit of the 
overflow that might be required out of Djibouti. The capacities 
will be roughly 150,000 to 180,000 metric tons and 25,000 to 
30,000 metric tons out of Berbera.
    Finally, I went to Eritrea. Eritrea had had a bit more 
rain, a bit more of a harvest, than anywhere in Ethiopia at 
that time. But at the same time, they do have drought 
conditions along the coast, and there are approximately half a 
million people who have been war-affected prior to the most 
recent conflict and who have moved into internally displaced 
person camps.
    The observation I had there was that the Eritrean 
Government had done a remarkably good job from a humanitarian 
perspective in terms of taking care of the people in those 
camps. I saw people in those camps who had been displaced from 
their homes for 22 months and who were in the second location 
to which they had been moved. Yet the camp had an operating 
school and an operating clinic. The children, although they 
might have respiratory troubles and reported diarrheal 
troubles, looked well-nourished. They certainly were active and 
running around and wanted to come and see us and talk with us. 
There were complaints in these camps about the quality of the 
food, but not the quantity of the food. They wanted more 
spices, and I told them we didn't do spices, although I am from 
Texas where we have quite a propensity for that kind of thing.
    To back up just a step, my impression of the government's 
response in Ethiopia was also favorable. These people had drawn 
down their grain reserves in an effort to help their own 
people. They had gone into the open market and bought 100,000 
metric tons of grain from the equatorial area of Eritrea, the 
eastern area of Ethiopia, which this year had a grain surplus, 
more than what was needed to feed its own population. I would 
like to think that that is at least partially the result of 
good international assistance spearheaded by USAID in the 
development arena, encouraging these folks to develop a market 
economy. You have to remember that just a very few years ago 
Ethiopia and Eritrea were a Marxist, centralized economy.
    After my trip to the Horn, I went from the Horn to Europe. 
I know that Congress, as we are, is always concerned about the 
United States not sharing an oversupply or an overcapacity of 
the burden. At that point in time, there were no European 
pledges that had been made for assistance to the Horn of 
Africa.
    While in Europe, I met with the European Union 
representatives, both of their counterparts to the Food for 
Peace office and to our Office of Foreign Disaster Assistance. 
Both of them indicated that they would be responsive.
    You know, you take so many trips that you feel you can't 
measure the productivity. But in that trip, after my departure, 
I was pleased to find that the Europeans upped their pledge to 
432,000 metric tons of food. I visited briefly in France with 
the foreign minister's humanitarian coordinator. A week after I 
returned from talking with him, the French airlifted the same 
kind of commodities into southern Ethiopia that we had 
previously airlifted, and the French announced the availability 
of the use of their military facilities in Djibouti as 
logistical assistance to the international humanitarian relief 
operation.
    I think my time has expired, Mr. Chairman, but I just 
wanted to give you some reflection of the human side of what we 
saw there, as opposed to just the numbers that we usually talk 
about.
    [The prepared statement of Mr. Parmer appears in the 
appendix.]
    Chairman Gilman. Thank you very much, Mr. Parmer, for 
giving us a good overview.
    When you returned from your recent trip, you stated that 
without the use of the port of Assab in Eritrea, you didn't 
think that famine could be averted in that part of the world. 
Given the renewed warfare, do you have any more current 
assessment with regard to that?
    Mr. Parmer. I think the operative word is ``guarantee.'' As 
I said, theoretically, the two ports that are available to us, 
the port in Djibouti and the port in Berbera, provide enough 
theoretical capacity to meet the need, and we are working very 
hard to enhance the capacity of those ports. We have 
contributed $600,000 to the World Food Program ports' renewal 
operation for the improvement operation in Djibouti.
    But I would not retract the statement I made. If we had 
that third alternative, I think we could guarantee that 
sufficient commodities could be delivered to help the people. I 
think we can get there without it. I don't want to be too 
negative, because I think we can use the existing facilities, 
but it is more difficult.
    Chairman Gilman. Mr. Parmer, how much are the French 
contributing to the port renovation in Djibouti, and how much 
are we contributing?
    Mr. Parmer. We have contributed just over $600,000. I don't 
know the amount of the French contribution. Let me see if one 
of my colleagues does.
    I will have to get that for you, Mr. Chairman.
    [The information referred to appears in the appendix.]
    Chairman Gilman. What is our total contribution, to date, 
with regard to Ethiopia and Eritrea?
    Mr. Parmer. The total contribution, to date, for Ethiopia 
is almost a quarter of a billion dollars. I would say our 
pledge and contribution--that is, what we are committed to do, 
as well as what has actually arrived--I would estimate another 
$50 million for Eritrea. That may be a tad high.
    Chairman Gilman. Thank you.
    Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Thank you, Mr. Parmer, for your testimony and for 
everything that you are doing to help in this major crisis on 
the continent.
    I am reminded today, and I am sure we all remember our 
friend and colleague, Congressman Mickey Leland, a good friend. 
Also, Joyce Williams and his delegation, who were actually 
killed in Ethiopia during a plane crash in the late 1980's; and 
their mission during that time was to take food to feed 
starving children in Ethiopia. Their unfortunate and untimely 
deaths focused this country's attention on the plight of hunger 
and starvation in the Horn of Africa.
    I want to ask you a couple of things with regard to our 
sustained effort during that time in terms of humanitarian 
assistance. What has USAID, in terms of the amount of money, 
done for the last 10 or 15 years? Has it been constant, 
consistent? Has it gone up or down? What has our contribution 
level been and how has it fluctuated?
    Mr. Parmer. If I could differentiate between emergency 
humanitarian support and development assistance, our 
development assistance has been relatively constant. Our 
humanitarian assistance, of course, goes up and down, based on 
the circumstances that we find.
    This is a very poor country that is chronically drought-
affected. So in a year like 1998, when they had a reasonably 
good harvest, you might not need as much assistance. But in a 
year like this, or 1994 where we had drought conditions, the 
humanitarian assistance goes way up.
    Ms. Lee. The famine early warning system, when was that set 
up? I know it is supposed to provide early warning of a 
drought. It is my understanding that reports were issued in 
June or July 1999 indicating that a drought condition was upon 
us.
    How do we--how did we respond to that? Was it in an 
expeditious fashion? Did we wait a while? What did we do?
    Mr. Parmer. The answer to your first question is that the 
famine early warning system was created after the 1984 drought, 
and I think we could pretty well demonstrate that it has been 
responsible for--not for there not being any more droughts, but 
for there not being any more mass famines at the time we saw.
    We actually received reports from our USAID mission out 
there before the July report came out, that the belg rains, the 
short season rains, had failed; and in June, a disaster was 
declared by the Ambassador, and we began trying to respond. In 
July, we contributed 28,000 metric tons of emergency food 
through the World Food Program. We did an initial assessment in 
Ethiopia and Djibouti. In August, we contributed another 21,000 
metric tons of food through the World Food Program, and also 
contributed $400,000 to procure the special kinds of foods that 
are necessary for malnourished children. It is always the 
weakest people in a community that suffer the most from one of 
these crises.
    We went on then to provide additional funding to Save the 
Children, to UNICEF; and again, in August, another 15,000 
metric ton of foods went to Catholic Relief Services. Finally, 
in September, 57,000 metric tons were provided. So we moved 
forward, and I think that is the reason that, at this point, 
the drought-related deaths can be measured maybe in the 
hundreds.
    Now, that sounds terrible to say that hundreds of deaths 
represent any kind of victory, but in a country where we saw 
over a million people starve to death in 1984, that is victory. 
This is a place that is chronically food-insecure. People die 
every year from malnutrition and malnutrition-related 
illnesses. But I think our response was prompt. We could not 
predict the extent of the problem that occurred when the belg 
rains fell again this spring. The numbers had been inclining 
upward, but they suddenly took off on a very steep curve.
    But again, I think we are ahead of it to the extent of 
preventing the kind of catastrophe that they have seen over 
there in the past.
    Ms. Lee. How has the war impacted, delayed or hampered our 
efforts and the efforts of other donors?
    Mr. Parmer. So far, the first thing I want to make clear is 
that the United States never made a linkage between the 
behavior of Ethiopia and Eritrea in their conflict and our 
commitment to provide humanitarian assistance to people who 
otherwise have gone without. So there was no delay, at least on 
the part of the U.S. Government, that was related to political 
or policy issues.
    The worst part, the epicenter of the near-famine that we 
are facing over there, is in the south, and the war is in the 
north. So at this point, the war has not physically impaired 
our ability to deliver goods. Now, what we worry about is the 
availability of sufficient trucking capacity to move the stuff 
to where it is needed.
    I met with Prime Minister Meles in Ethiopia and expressed 
that concern to him. He told me directly that that would not 
occur. The words he used were, ``We are not going to let 1984 
happen again. We look upon that as our holocaust, and I will 
not allow trucks to be diverted from the humanitarian effort to 
support whatever military operation might be going on. In 
fact,'' said he, ``I would do the opposite if I had to. I would 
divert military trucks to carry humanitarian food.''
    Now, I say that at the same time that I talked to our 
Ambassador in Djibouti the day before yesterday, and there 
weren't any trucks in Djibouti. I understand our Ambassador in 
Ethiopia has talked to Prime Minister Meles, and he has 
indicated that he would immediately see to the problem. I got a 
report just before I came over that indicated that truck 
availability was opening up again.
    Ms. Lee. Thank you very much.
    Chairman Gilman. The gentlewoman's time has expired. Thank 
you, Ms. Lee.
    Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. You mentioned, Mr. 
Parmer, that we have provided a quarter-billion dollars in 
emergency aid in Ethiopia. How much do you think we would have 
to give in order that they would not--is there any way that we 
can buy them out of doing what they are doing I suppose is the 
bottom line?
    Mr. Parmer. You mean from the point of view of their 
conflict, Congressman?
    Mr. Tancredo. That's right, yes.
    Mr. Parmer. I am in the humanitarian response business. I 
think maybe that is a question that should be better 
addressed--would be better addressed to my colleagues at the 
State Department.
    Mr. Tancredo. I know you have a baccalaureate in political 
science. Maybe I will test that instead.
    Mr. Parmer. I think my view would be what I expressed 
earlier, and that is, that it should remain the policy of the 
United States not to link humanitarian assistance with 
politics, whether to encourage a country to do things that we 
want them to do or discourage them from things we don't want 
them to do. We are really not in the business of helping 
countries; we are in the business of helping people.
    I mean, I know the discomfort that we all feel when we 
provide humanitarian assistance to a people who are fighting a 
war. We think to ourselves, why should we be providing 
assistance when they are expending resources on something else? 
But the kid I saw in that Somali mother's arms in southern 
Ethiopia didn't know whether his country was at war or not, the 
mother didn't care whether her country was at war or not, and 
she wasn't going to get any food if the United States of 
America and France, it turned out, hadn't airlifted food into 
Gode.
    So it is not an easy situation.
    Mr. Tancredo. Of course not, and the question was at least 
partially rhetorical, I suppose.
    But it is intriguing in a way, because we look at the 
extent to which we go--commendably, I think--to provide that 
kind of relief in this situation, making sure that both sides 
are not--making sure that our ability to provide that aid to 
both sides is not impeded by the conflict. Then it is 
impossible for me to ignore a situation over which you have no 
control, but in a way just thinking aloud about Sudan and our 
inability or lack of desire to provide that same degree of 
support for people there. I mean, you have problems with--
logistical problems with people blocking the aid effort.
    But nonetheless, all that aside, the recent demonstrations 
outside the embassy, to what extent--and again, I am drawing on 
your political science degrees and background perhaps more than 
anything else----
    Mr. Parmer. That was a long time ago.
    Mr. Tancredo. I saw it. I picked it out in your background.
    What was the basis for those? What do you think prompted 
that kind of response outside of our Embassy?
    Mr. Parmer. My guess would be that the demonstrations of 
that type probably did not just occur spontaneously and that 
the Government of Ethiopia was unhappy with the positions that 
we were taking in the United Nations. That is one of the things 
I learned over there, and that is, that both sides can be very 
unhappy with you at the same time.
    Mr. Tancredo. Thank you.
    Mr. Parmer. I might add, though, that we are providing this 
year 125,000 metric tons of food assistance for Sudan, and as I 
said earlier, fortunately, the one piece of really good, 
positive news I got out of my trip over there was the report 
from southern Sudan that they had had a pretty good harvest and 
that they were in need of less food assistance than they have 
been in prior years.
    Mr. Tancredo. Thank you very much for your testimony. I 
have no other questions.
    Chairman Gilman. Thank you, Mr. Tancredo.
    Did you have a further question? Ms. Lee.
    Ms. Lee. Very quickly, you didn't mention Italy in terms of 
it being a donor country. Just knowing a bit about the history, 
can you talk about that a little bit in terms of what their 
role is, or has been, or is not?
    Mr. Parmer. Somewhere in these papers I have a list of the 
donations by country. Since I don't know exactly how to put my 
hands on it, Ms. Lee, perhaps I could send that to you.
    But I will say that I did meet with officials of the 
Italian Government, when I was in Rome to talk with Ms. Bertini 
and the World Food Program people. The Italian Government 
officials indicated that they not only had made contributions, 
in particular, to Eritrea which, as you know, was a long-time 
colony of Italy, ever since 1900, but also that they intended 
to make additional contributions.
    I can get you the exact numbers.
    [The information referred to appears in the appendix.]
    Ms. Lee. Thank you.
    Chairman Gilman. Thank you, Mr. Parmer. We thank you for 
being here today.
    We will, before proceeding with our next panel, I had to 
forgo my opening statement while Ms. Bertini was waiting to go 
on. I just would like to make a few opening remarks with regard 
to this hearing.
    Thursday last week, shortly after midnight, Ethiopian 
troops launched a major military offensive against Eritrea, and 
according to the sketchy reports we have received, wave after 
wave of Ethiopian infantry threw themselves against fortified 
Eritrean positions. Eventually, they were successful at 
breaking through the Eritrean defenses, and the Ethiopian armed 
forces have now penetrated far into Eritrean territory and 
appear to be trying to outflank the main body of Eritrean 
troops on the border.
    We do not know yet what the death toll of this latest round 
of fighting will be, but it will likely be tens of thousands. 
Notwithstanding the Organization of African Unity peace 
proposal that has been on the table for over a year and which 
both countries claim to accept, it is apparent that Ethiopia 
has been planning this attack for a long period of time.
    I have suspected for some time that Ethiopia's leadership 
favored a military solution to the conflict, and in January I 
wrote in the Washington Post that, ``Ethiopia appears prepared 
to reignite their war. It has become clear that Ethiopia is 
hostile to the peace agreement and is stalling for time to 
recruit and train tens of thousands of additional troops.''
    After that article appeared, I received hundreds of angry 
letters. The Ethiopian Foreign Minister himself launched a very 
personal, public attack against me. Great pains were taken to 
point out that Ethiopia had not rejected the peace plan and 
that its objections were merely technical. Again and again, I 
was told that Ethiopia had no intention of restarting the war.
    For example, the Ethiopian ambassador wrote, ``First and 
foremost, my government is committed to ending the war through 
negotiations. We have, without condition, supported the OAU 
framework as a tool for ending the war and will continue to do 
so.''
    For the sake of the thousands who have died over this past 
week and the thousands more who will likely perish in this 
senseless war, we sincerely wish that my suspicions had been 
wrong.
    The war is inextricably linked to the famine, which is the 
focus of our hearing today, and in southeastern Ethiopian parts 
of the central islands, food shortages have reached a critical 
stage. Eight million of Ethiopia's 60 million citizens are now 
at risk of starvation. Nearly 1 billion metric tons of food are 
going to be required, and our nation is prepared to supply a 
portion of it.
    The cycle of famine in Ethiopia will not be broken, 
however, as long as the government continues to spend a third 
of its budget on its military. The International Institute for 
Strategic Studies estimates that Ethiopia spent $467 million on 
the military just last year, a dramatic increase over previous 
years.Economic development efforts have been put on hold while 
scarce resources are committed to their war effort.
    Let us be very plain. What is taking place in Ethiopia 
today is a man-made disaster. Without the war, there would not 
be a famine on this scale. The decisions of the Governments of 
Ethiopia and Eritrea have directly contributed to the dire 
conditions of their populations. This is the same pattern we 
saw in the early 1980's when the horrific Dergue regime under 
Mengestu used famine to make war on its own people. How 
regrettable that the current Governments of Eritrea and 
Ethiopia, which had valiantly fought against the Dergue, now 
share this aspect with it.
    We thank our witness for joining us today, and we look 
forward to the testimony of our other witnesses.
    Thank you again, Mr. Parmer. We appreciate your patience.
    Mr. Parmer. Thank you.
    Chairman Gilman. We will now call our next panel.
    Our next panel includes two distinguished witnesses, Dr. 
Stephen Morrison, who is no stranger to our Committee, having 
served as a staff member of the African Affairs Subcommittee 
from 1987 to 1991.
    Welcome, Dr. Morrison.
    After launching USAID's Office of Transition Initiatives, 
Dr. Morrison joined the State Department's policy planning 
staff and recently assumed the directorship of the African 
Studies Program at the Center for Strategic and International 
Studies.
    Joining him is Mr. Gary Shaye, Vice President of 
International Programs at Save the Children. In a 25-year 
record of service with that distinguished organization, Mr. 
Shaye has served in the Dominican Republic, in Nepal and 
Bhutan. His current responsibilities include Save the 
Children's operations in some 46 countries.
    Thank you both for being with us today.
    Chairman Gilman. Dr. Morrison, you may summarize your 
statement, and your full statement will be made a part of the 
record. The same for Mr. Shaye.
    I am going to ask Mr. Tancredo if he would chair this 
panel, since I have to go on to another meeting.
    Mr. Tancredo. Please proceed.

  STATEMENT OF J. STEPHEN MORRISON, Ph.D., DIRECTOR, AFRICAN 
STUDIES PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Morrison. Thank you, Mr. Chairman. I am very pleased to 
be here today. I was asked to prepare some comments yesterday 
on the broader political and military context in which this 
famine is unfolding. I will do my best and attempt to be brief 
in a situation which is highly fluid, highly uncertain, and 
highly dangerous today in the evolving war between Ethiopia and 
Eritrea.
    Before I begin, I would like to put our session here in a 
bit of context. Seventeen years ago, when the 1983-1984 famine 
was first beginning to break, we had no AID mission in Addis. 
The issue of effective humanitarian relief in the Horn of 
Africa had not surfaced in several years, over a decade.
    It was a very divisive issue within Congress at that time. 
Within 16 months, there had been one very important bipartisan 
congressional delegation drawn from this Committee that 
resulted in a $1 billion supplemental that was also put forward 
with very strong bipartisan support. That was an essential 
event in building the bipartisan coalition around effective 
humanitarian assistance globally. It was rooted in that 
phenomenon and in that motion.
    I believe that the leadership here in Congress remains 
critical, and I think there is much that you should be quite 
proud of. Many of the principles, practices and the norms of 
humanitarian assistance were forged in that period and applied 
globally.
    I think we also, as this famine unfolds in Ethiopia and 
Eritrea against a backdrop of war, we have several very 
important advantages or assets that we need to continue to 
remind ourselves of.
    First, I have mentioned the bipartisan coalition in support 
of effective humanitarian action. Second is the administration 
itself. USAID, both here in Washington and through the 
leadership of the Bureau of Humanitarian Response and our 
missions in both Asmara and Addis are extremely capable and 
focused on this, and I think they deserve to be commended for 
what has been done so far. This is a very professionalized 
operation, it is very quick off the mark, and it has been very 
effective for this cycle of famine. The Eritrean and Ethiopian 
Governments both have capacities they did not have 17 years 
ago, and the regional infrastructure, as weakened and difficult 
as it is, still permits some quick action.
    Now I would just like to quickly turn to a few comments. 
First of all, we should keep clear, as we look at the war and 
the question of how the war impacts the humanitarian situation, 
we should keep clear that the responsibility for this intense, 
expansive war that resumed last Friday and that now reaches 
into Eritrea's interior--that the responsibility rests with the 
two adversaries and them alone. We and other external players, 
such as the OAU and the U.N. Security Council, are not the 
cause of this protracted 2-year crisis, now compounded by 
famine that threatens to escalate and endure in ways that will 
gravely weaken each State and damage the already frail 
surrounding region. Each side at varying points has attempted 
to lay blame upon outsiders for their failure to resolve the 
regional border dispute. We should disregard these diversions 
and focus clearly upon the base calculations of the two 
parties.
    Indeed, the administration deserves special credit, I 
believe, for the sustained creative efforts that have been made 
by Special Envoy Anthony Lake, Assistant Secretary Rice, and 
NSE Director Gayle Smith, along with their Algerian 
counterparts acting on behalf of the OAU. This has been an 
exceptional instance of diplomatic investment. This has 
amounted to a full court press over a period of well over 2 
years now; it is an enormous, continual and diversified 
investment. It has not worked, admittedly, but I think we 
should keep ourselves very aware of what this investment, the 
scale and the scope and the integrity of it, is.
    These outside interventions have revealed the grave limits 
to high-level diplomacy, and they have raised very troubling 
questions about what strategies and approaches can work in 
circumstances in which the parties themselves are so resistant 
to a negotiated settlement. We are at risk right now of drawing 
a conclusion that we should not make this kind of investment in 
this type of crisis zone. I would argue against that. The fact 
that we have not had success up to now does not mean that this 
type of serious, diplomatic, bilateral and multilateral 
investment cannot work elsewhere and cannot work again in the 
future in terms of the Ethiopian and Eritrean crisis.
    Our efforts diplomatically have put forward a very 
important paradox in terms of the Ethiopia-Eritrea conflict. 
These two adversaries are in essential agreement on a framework 
to the border war that began in May 1998. But the closer that 
these parties came to final closure over this dispute over a 
barren stretch of ground, the harder it seemed for them to 
finally sign off on that agreement. The adversaries appear even 
more starkly incapable of having the will and the capacity to 
close this deal.
    This has led people to begin questioning what is the nature 
of this conflict. It has led to the conclusion that this is, in 
fact--what had originally been understood as a border dispute 
is, in fact, something larger. It is a war between two highly 
interdependent states. It is a war that has all of the complex 
motivations and volatile emotions and deep hostilities that 
that implies.
    We have to begin to ask, where does this new phase of 
warfare lead? What is at stake in terms of U.S. interests? 
Wyhat are the policies we should pursue?
    I would argue that based on past history, sadly, there is a 
very high probability that this war will drag on and transmute 
along new fronts. Ambitions of each side are highly uncertain, 
but they reach well beyond the trench lines and disputed ground 
around Badme, Zalambessa and Assab.
    There will be a strong impulse, I would also argue, in the 
coming months to make use of air power, particularly on the 
Ethiopian side, where there has been a massive investment in 
air capacity and where Ethiopia now enjoys considerable 
superiority. I want to remind you that just 2 years ago this 
month, both sides, as this dispute broke, engaged in aerial 
bombardments of civilian populations.
    This fight that is under way right now is consciously over 
something much larger. It is rooted in national honor, 
historical grievances, and the blow-back from the separation 7 
years ago this month between Ethiopia and Eritrea into two 
separate nations. It is about--this war is about two nations 
who have altogether lost trust in one another and have lost any 
vision of how they are going to relate to one another in peace.
    It will be very difficult to move back from where we are 
today to the earlier focus upon a border dispute along a line 
of ground in a barren part of Ethiopia and Eritrea. The game 
has changed. We are going to need to look at this problem in a 
much different way.
    Disturbingly, this expansive war has certain echoes with 
the 1970's and 1980's. Worsening conflict is unfolding parallel 
with deepening famine. An international arms bazaar continues 
apace today as we speak. Fortunately, we had the Security 
Council pass the embargo last night. This bazaar, this arms 
bazaar has enabled and consolidated hard-line interests on both 
sides and it has fed the dilution of military triumph.
    When both sides entered this war last Friday, military 
commanders on each side were optimistic that they would see 
results. Each side entered this conflict confident that they 
would get what they wanted. There is something bizarre and odd 
and deeply disturbing about that.
    We have to pay attention here, as we have in Angola and 
Sierra Leone and other crisis areas, to the reckless marketing 
of weapons to both sides, often by the same vendors. This has 
fed the worst tendencies of both sides, and it has certainly 
not led to deterrents, it has led to the opposite. The war is 
reordering the resurrounding region in very important ways. It 
distracts and weakens regional pressure upon Khartoum to 
respect its human rights, to end its internal wars, and to end 
its support of international terrorism. It encourages new 
vulnerabilities to attack for Djibouti and it encourages arms 
transfers into already chaotic zones of Somalia.
    How should we think about the war's impact on humanitarian 
operations? There has been some comment about Massawa and 
Assab, the lack of access to these ports and on limits on 
trucking. I want to add a few other points.
    The war in the famine zones is geographically segregated. 
Hugh Parmer made this point. This is very unfortunate. That 
means that most of the relief that is going into Ethiopia or 
Eritrea is not going to be subject to the predations of armed 
units as we have seen in countless other wars. This is a 
different type of war, and we are fortunate there. We will be 
able, I think, to guard the integrity of humanitarian 
operations far more in this instance than in many others.
    The exception, where we need to be thinking about down the 
road--the exception is where the war and the humanitarian 
crisis will intersect, which is presently in the interior areas 
of Eritrea. If fighting persists there and if it results, as 
would seem to be virtually inevitable, in massive displacement 
of civilians, we are going to have an emerging humanitarian 
crisis in the middle of an armed conflict as we have seen in 
the Balkans, in Angola and in Sierra Leone, and there we will 
be back into a very difficult and complex game.
    I want to add also, there are hundreds of thousands of 
displaced Ethiopians in Northern Tigray along the border areas. 
As the war has resumed, one should be asking, to what degree 
this population has been redisplaced and access to them 
disturbed?
    If war persists and intensifies, we can anticipate further 
forced expulsions in both Addis and Asmara of Eritrean and 
Ethiopian nationals respectively. We should be very vigilant on 
human rights grounds to this phenomenon. Close to 100,000 have 
already been expelled forcibly.
    The railroad and road channels from Djibouti are the path 
along which both the humanitarian assistance and the armaments 
flow. There is a close overlap. It is very difficult to 
disentangle arms and humanitarian relief along the road and 
rail links leading from Djibouti into Ethiopia. I would argue 
that this makes for a very alluring target on military grounds.
    I have spoken to some of our officials here to try and get 
some estimate of how real is the risk of attack upon that line 
if this war intensifies, but I think it is a real threat and we 
need to look more closely at it. Mention has been made of the 
prospect of aerial bombing of civilian targets. If it moves 
into urban environments like Asmara or northern Ethiopian urban 
environments, you could cause very serious damage to those 
populations in a very short time. If Assab comes under siege as 
many have argued it might and it suffers extensive damage to 
its port and other infrastructure, that will have long-term 
consequences for the annual fertilizer, fuel and grain 
shipments into Ethiopia.
    I want to make one final comment, which is that Somaliland, 
which has provided the port of Berbera, which for years was a 
refueling station and air base for the United States during the 
cold war, Somaliland is a state-led port of relative stability 
that has begun to function and has been searching for the 
opportunities to engage donors and others in support of their 
efforts, with minimal success up to now. Paradoxically, this 
famine is bringing resources and engagement there. One hopes 
that this will result in a positive change and reinforcement of 
positive efforts that are under way in Somaliland.
    Last, final comments on where do we go with policy? I think 
our interests in this conflict are to adopt a measured 
detachment from each of the adversaries. To address the grave 
humanitarian demands, while seeking to contain the spread of 
this war and eventually diffuse it. At some point in time, we 
are going to have to get the parties focused back upon their 
vision of living peacefully with one another, but that is a 
remote--a remote option at the moment.
    A resolution of this war will not likely be achieved in the 
near term. It requires a strategy of 1 to 2 years, and it 
requires a very heavy emphasis on building transatlantic 
alliances. We need to today intensify our consultations with 
our European partners and devise mechanisms for moving ahead. 
At the moment, we do not have effective transatlantic 
mechanisms.
    We have mentioned the arms embargo. We need to begin taking 
a very serious look at our multilateral and bilateral 
assistance.
    [The prepared statement of Dr. Morrison appears in the 
appendix.]
    Mr. Tancredo. Thank you, Dr. Morrison. The bells of course 
indicate that we have a vote.
    Mr. Shaye, if you have your testimony and can give it 
within the timeframe, we should be able to handle it.

    STATEMENT OF GARY SHAYE, VICE PRESIDENT, INTERNATIONAL 
                PROGRAMS, SAVE THE CHILDREN, USA

    Mr. Shaye. Good afternoon, Mr. Chairman, Members of the 
Committee and distinguished guests. Thank you for inviting Save 
the Children to speak with you about the current crisis in 
Ethiopia and share with you the work that we are doing to 
respond to the critical needs of children in this emergency. I 
am hoping that while I am speaking, you will get some video 
footage of Denan, which is an area just north of the Gode area.
    I would like to begin by thanking the government for being 
so proactive and responsive to this emergency. This assistance 
has been provided by the U.S. Government, not only to the U.N. 
agencies such as the World Food Program, but has also been 
provided to nongovernmental organizations like Save the 
Children that are working on the ground in Ethiopia. We have 
been really fortunate to have had a really close working 
relationship with USAID, Food for Peace, and OFDA. I think I 
can speak for all of the NGO's, we would not be in a position 
to respond to this crisis without that timely support.
    The U.S. Government should also be applauded for moving 
quickly and for providing a significant portion of the 
international assistance for this emergency. We are off to a 
good start, yet there is still a lot to do. I would also like 
to recognize the U.S. Government's understanding of the 
regional nature of this emergency and the need to continue to 
support emergency development and political initiatives 
throughout the region. It is clear that this famine, like all 
famines, finds its roots in complex regional, political and 
economic issues that require a multifaceted and long-term 
approach.
    Save the Children began its work in Ethiopia in response to 
the 1984 famine. Over the last 16 years, we have implemented a 
wide range of activities to help vulnerable children and their 
families combat hunger, obtain community-based health services, 
have access to clean water and attend school. Our programs 
focus on geographic areas and target populations that have been 
under served. This includes the pastoral peoples in the east 
and south of Ethiopia.
    When droughts and famines begin, it is the children who are 
the most severely affected and whose health begins to 
deteriorate first. That is why in November 1999, Save the 
Children agreed with the Ethiopian Government authorities to 
initiate drought relief activities in the Gode zone of 
Ethiopia.
    At this time the situation in Gode of Ethiopia is one of 
the most severe of anywhere in Ethiopia. An estimated child 
mortality rate of 1.5 of 10,000 per day has been observed. 
Currently, we are working with 163 severely malnourished 
children who are at our therapeutic feeding center and 6,000 
moderately malnourished children who are in our supplementary 
feeding program and are fed daily with their mothers. Since the 
opening of these centers in February, admissions of 
malnourished children to these feeding centers are double our 
original projections.
    The good news I can report is that during the past month, 
we have seen a decrease in the number of infant and child 
deaths in Gode. However, the death rates in the region are 
still too high. We estimate that both feeding centers could 
double again and there is a clear need to open additional 
centers.
    Other efforts that Save the Children is conducting in the 
region, including the preparation and initiation of food 
distributions for some 135,000 children and family members in 
the Liben, Afdheer, and Borena regions were also involved in 
the transportation of water by trucks to over 100,000 residents 
of the Gode zone, however, there are still villages that don't 
have access to water. We are vaccinating livestock herds to 
prevent deaths and improve the food security of pastoralist 
families and their children who rely on livestock for milk and 
income.
    These efforts address only a small fraction of the 
suffering. The relief efforts on the ground need to be expanded 
and combined with political initiatives to fully address the 
problems that are currently affecting over 8 million 
Ethiopians.
    The efforts of Congress are needed to assist in this 
emergency. The American people don't want us to let the women 
and children of Ethiopia die, regardless of the political 
turmoil of the governments in the region. The United States is 
a leader in responding to humanitarian crises, and the American 
people are known for their generosity and compassion. The 
faster we respond now, the greater the chance that children and 
their families will survive.
    What should Congress do? As stated previously, the U.S. 
Government's initial efforts to deal with this emergency have 
been exemplary. We are here today to ask Congress to continue 
to ensure that the agencies of the U.S. Government have 
adequate resources to respond to the underlying economic and 
social fragility in the region for years to come, recognize how 
important it is that the regional approach to this emergency is 
not forgotten, and that continued assistance is targeted to the 
rehabilitation and development stage, not only in Ethiopia, but 
throughout the region, to help mitigate the effects of 
potential future crises.
    When I was in Ethiopia in September, I was in the Negali 
area, and I was out to see some of our programs that are 
supported through the Food for Peace office. A number of the 
projects that we are involved with involve the construction of 
reservoirs. They are constructed using food for work, but what 
they do is they enable the people to conserve water for many 
additional months throughout the year. There were areas as 
large as two football fields that had been dug 10 to 15 feet in 
the ground that were used as rain catchment areas. These are 
the types of interventions, relatively low-cost interventions, 
that help people cope with the droughts in those areas.
    We should also acknowledge that the influence of the U.S. 
Congress is needed to ensure that the Government of Ethiopia 
maintains its commitment to the long-term task of reducing 
famine vulnerability.
    Mr. Tancredo. Please wrap it up.
    Mr. Shaye. Just, finally, I get calls from our staff from 
places like Afghanistan, Sudan and Angola. They are all places 
with complicated politics and conflict. The calls are about, 
what can agencies like Save the Children do to address the 
humanitarian crisis? While we certainly understand that there 
is a conflict going on, it is really important for this 
Committee not to lose sight of the woman sitting in Gode with 
her child. The conflict is a long way from where she is, and 
she is looking to groups like Save the Children and others for 
the assistance she needs.
    Thank you very much.
    [The prepared statement of Mr. Shaye appears in the 
appendix.]
    Mr. Tancredo. Thank you, Mr. Shaye.
    Thank you, Dr. Morrison for your testimony. I appreciate 
it. I appreciate the fact that you would stick around with us 
here. I assure you that the testimony will be carefully 
reviewed.
    We don't have time for questions, so we will have to bring 
it to closure. Thank you, gentlemen.
    [Whereupon, at 1 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                              May 18, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7167.001
    
    [GRAPHIC] [TIFF OMITTED] T7167.002
    
    [GRAPHIC] [TIFF OMITTED] T7167.003
    
    [GRAPHIC] [TIFF OMITTED] T7167.004
    
    [GRAPHIC] [TIFF OMITTED] T7167.005
    
    [GRAPHIC] [TIFF OMITTED] T7167.006
    
    [GRAPHIC] [TIFF OMITTED] T7167.007
    
    [GRAPHIC] [TIFF OMITTED] T7167.008
    
    [GRAPHIC] [TIFF OMITTED] T7167.009
    
    [GRAPHIC] [TIFF OMITTED] T7167.010
    
    [GRAPHIC] [TIFF OMITTED] T7167.011
    
    [GRAPHIC] [TIFF OMITTED] T7167.012
    
    [GRAPHIC] [TIFF OMITTED] T7167.013
    
    [GRAPHIC] [TIFF OMITTED] T7167.014
    
    [GRAPHIC] [TIFF OMITTED] T7167.015
    
    [GRAPHIC] [TIFF OMITTED] T7167.016
    
    [GRAPHIC] [TIFF OMITTED] T7167.017
    
    [GRAPHIC] [TIFF OMITTED] T7167.018
    
    [GRAPHIC] [TIFF OMITTED] T7167.019
    
    [GRAPHIC] [TIFF OMITTED] T7167.020
    
    [GRAPHIC] [TIFF OMITTED] T7167.021
    
    [GRAPHIC] [TIFF OMITTED] T7167.022
    
    [GRAPHIC] [TIFF OMITTED] T7167.023
    
    [GRAPHIC] [TIFF OMITTED] T7167.024
    
    [GRAPHIC] [TIFF OMITTED] T7167.025
    
    [GRAPHIC] [TIFF OMITTED] T7167.026
    
    [GRAPHIC] [TIFF OMITTED] T7167.027
    
    [GRAPHIC] [TIFF OMITTED] T7167.028
    
    [GRAPHIC] [TIFF OMITTED] T7167.029
    
    [GRAPHIC] [TIFF OMITTED] T7167.030
    
    [GRAPHIC] [TIFF OMITTED] T7167.031
    

</pre></body></html>
